                        UNITED STATES DEPARTMENT OF AGRICULTURE

                                   OFFICE OF INSPECTOR GENERAL

                                        Washington, D.C. 20250




June 30, 2009

REPLY TO
ATTN OF:        03703-1-Te

TO:             Douglas J. Caruso
                Administrator
                Farm Service Agency

ATTN:           T. Mike McCann
                Director
                Operations Review and Analysis Staff

FROM:           Robert W. Young       /s/
                Assistant Inspector General
                  for Audit

SUBJECT:        American Recovery and Reinvestment Act – Direct Farm Operating Loans –
                Phase 1(1)


The American Recovery and Reinvestment Act of 2009 (Recovery Act) includes measures to
modernize our Nation’s infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need. Congress, in enacting the Recovery Act, emphasized the need for
accountability and transparency in the expenditure of the funds. On April 2, 2009, the Office of
Management and Budget (OMB) issued guidance, “Updated Implementing Guidance for the
American Recovery and Reinvestment Act of 2009,” requiring Federal agencies to establish
rigorous internal controls, oversight mechanisms, and other approaches to meet the
accountability objectives of the Recovery Act. In this guidance, OMB stressed the need for
agencies to use appropriate internal control assessments to assess the risk of program waste,
fraud, and/or abuse. Based on these assessments agencies were to develop defined strategies to
prevent or timely detect, waste, fraud, or abuse.

The Farm Service Agency (FSA) is responsible for making direct farm loans with Government
funds. FSA also services these loans and provides its direct loan customers with supervision and
credit counseling so they have a better chance for success. A farm operating loan is one type of
loan available under the direct loan program. For fiscal year 2008, 11,171 direct farm operating
loans were obligated totaling $506 million. On March 9, 2009, the Farm Service Agency (FSA)
was authorized to begin distributing Recovery Act funds, including funds totaling over $173
million for direct farm loans. As of May 31, 2009, for the current fiscal year, 14,086 direct farm
operating loans have been obligated totaling about $845 million, which includes Recovery Act
funds of over $173 million (20 percent of the total obligations). FSA has requested another
Douglas J. Caruso                                                                                2


$400 million in non-Recovery Act funding for the backlog of approved, but unfunded, loan
applications.

Our role, as mandated by the Recovery Act, is to oversee agency activities and to ensure funds
are expended in a manner that minimizes the risk of improper use. On May 12, 2009, we held an
entrance conference with members of your staff and briefed them on the objective of our
ongoing review of Recovery Act funding for the Direct Farm Operating Loan Program. To
accomplish our objective, we are in the process of assessing the program’s policies and
procedures, as well as its internal controls.

Our preliminary review of FSA’s current internal controls and processes identified concerns
regarding current compliance procedures and whether they can adequately address the oversight
and accountability requirements of the Recovery Act and OMB guidance. FSA’s current
compliance review process does not ensure that reviews of direct farm operating loans are
performed early on during the loan making process. Current compliance procedures may not
detect improper use of Recovery Act funds or ineligible borrowers until months after loan
closing. Also, given the relatively smaller number of direct farm operating loans in the total
population from which compliance review samples are drawn, there is no assurance that FSA
will sample a sufficient number of Recovery Act-funded loans to provide adequate assurance as
to the accountability and propriety of Recovery Act expenditures.

FSA’s compliance procedures for the Direct Farm Operating Loan Program include the
following reviews:

       Farm Loan Program Risk Assessment (FLPRA) – FLPRA reviews are conducted at the
       end of each year and provide the Farm Loan Programs (FLP) National Office staff and
       State managers an overall evaluation of State FLP operations. Recommendations for
       improvements are included in the FLPRA as needed. FLPRA reviews use a risk-based
       approach with established review objectives, scope, and frequency. FLP National Office
       staff select at the beginning of each fiscal year approximately 10-13 State offices for
       review; however, the reviews are based on and focus on the prior year’s activities. For
       the 13 State offices scheduled for review in fiscal year 2009, the State offices were
       selected based on data that predate the passage of the Recovery Act. Nine of the State
       office reviews have been completed. The remaining four State office reviews will be
       conducted from June through September 2009.

       In order to determine if the State office is providing adequate oversight and direction with
       respect to the administration of direct loan making, FLPRA reviewers select a sample of
       new loans closed in the prior 18 months. Therefore, for most of the FLPRA reviews
       completed so far this year, the sampled loans would have been selected from a population
       of loans closed months prior to passage of the Recovery Act. Also, according to the FLP
       National Office staff, many of the Recovery Act-funded loans have not been closed
       because of pending accounting adjustments and are therefore not in the universe for
       sample selection.
       Yearend Analysis – State offices are required to perform analyses on all borrowers.
       However, these reviews are performed at yearend or to coincide with the end of a
       borrower’s production and marketing cycle, which generally occurs when the first annual
       loan payment is due. Since these reviews are performed retrospectively, that is, near the
       end of the loan period, the State offices will have no assurance early on as to whether
       funds were distributed to eligible borrowers for eligible purposes.

       County Office Review Program (CORP) – The CORP measures and evaluates the
       effectiveness of internal controls over agency assets in the prevention and detection of
       fraud, waste, and abuse. According to CORP procedures, these county office reviews
       consist of two parts – county office administration reviews and targeted reviews of
       selected programs. The administration reviews focus primarily on procedural
       administrative matters, while the targeted reviews are designed to review a specific
       program or program area. However, CORP reviews often do not include FLP.

       District Director (DD) Review – The DD reviews are performed on a quarterly basis each
       year and may include a review of loan making and loan servicing activities. However,
       the DD reviews primarily focus on evaluating whether the loans were processed in
       accordance with policies and procedures, as opposed to validating whether the borrower
       was eligible and whether loan funds were properly used.


We discussed our concerns with the FLP national office staff on May 12 and May 26, 2009. At
that time, we recommended that for direct farm operating loans funded by the Recovery Act, that
FSA should consider the following:

   1. Revise FLPRA procedures to include reviews performed earlier in the loan cycle to
      timely ensure that borrowers are eligible and funds are properly used.

   2. Revise sampling procedures in these compliance reviews to ensure that adequate samples
      of Recovery Act-funded loans are selected for review.

The national officials generally agreed with our recommendations and agreed to determine the
most appropriate form of action based on the available resources.

Please provide a written response to this letter within 5 days, outlining your proposed actions. If
you have any questions, please contact me at 720-6945, or have a member of your staff contact
Ernest M. Hayashi, Director, Farm and Foreign Agricultural Division, at 720-2887.
United States        DATE:          July 20, 2009
Department of
Agriculture
                     TO:            Robert W. Young
Farm and Foreign                    Assistant Inspector General
Agricultural
Services                             for Audit
Farm Service
Agency               FROM:          T. Mike McCann
                                    Agency Liaison Officer
Operations Review
and Analysis Staff                    for the Farm Service Agency
1400 Independence
Ave, SW              SUBJECT:       American Recovery and Reinvestment Act – Direct Farm Operating Loans
Stop 0540                           – Phase 1 (1) - (03703-1-TE) – Your June 30 Memorandum
Washington, DC
20250-0540
                     During the past 6 weeks, the Agency has addressed dozens of inquiries and questions
                     related to the direct operating loans funded through the American Recovery and
                     Reinvestment Act (ARRA). We would like to reiterate that Congress appropriated this
                     money for an existing program, not a new program. As such, loans funded through the
                     ARRA are subject to the established regulations, policies, and procedures governing loan
                     origination and subsequent loan servicing. Likewise, these loans will be subject to review
                     through the various elements of the Farm Loan Programs’ Internal Controls program.

                     Additionally, the obligation of loans funded by ARRA was carried out in accordance with
                     our ARRA Implementation Plan. This plan, which detailed specifically how ARRA
                     appropriations would be used, was approved by the Department and the Office of
                     Management and Budget.

                     We believe that by processing, funding, and servicing these loans in accordance with
                     existing regulations and procedures, we have met the requirements and intent of ARRA.

                     Provided below are responses to your recommendations on what the Farm Service
                     Agency (FSA) should consider for direct farm operating loans funded by ARRA.

                     Recommendation 1:

                     Revise Farm Loan Program Risk Assessment (FLPRA) procedures to include reviews
                     performed earlier in the loan cycle to timely ensure that borrowers are eligible and funds
                     are properly used.

                     Response to Recommendation 1:

                     The FLPRA review process is not designed to evaluate the accuracy of borrower
                     eligibility determinations made during the loan approval process or to monitor borrower
                     funds usage. Therefore, it is not necessary to revise the FLPRA process. FLPRA, which is




                                                          USDA is an Equal Opportunity Employer
Mr. Robert Young
Page 2

one component of the Farm Loan Program internal controls program, is a management
tool developed to evaluate the potential for risk in three areas – program objectives,
financial integrity, and program management.

Direct operating loans funded by ARRA are subject to the same evaluation, approval, and
review processes as all other direct operating loans. Authorized Agency officials
determine applicant eligibility in accordance with the requirements established in FSA
Handbook 3-FLP, Direct Loan Making. If a favorable eligibility determination is made,
an authorized Agency official makes a credit decision based on a review of the farm
business plan for the farm operation, the adequacy of the security, and the credit
worthiness of the applicant. The Agency official also verifies the proposed loan is
compliant with applicable Agency regulations and handbooks with regard to loan purpose,
loan funds, dollar limitations, and environmental restrictions.

Once issued, loans are subject to review through internal control processes such as the
District Direct Oversight Reviews and County Operations Review Program. In addition,
State Offices are required to perform Credit Quality Reviews each year. Credit Quality
Reviews are used to monitor and evaluate the State’s credit quality standards, including
loan eligibility and use of funds, and to determine whether an employee’s loan approval
and/or servicing authority will be granted, revised, limited, or revoked.

Recommendation 2:

Revise sampling procedures in these compliance reviews to ensure that adequate samples
of Recovery Act funded loans are selected for review.

Response to Recommendation 2:

To ensure that an adequate sample of loans funded through the Recovery Act are
reviewed, FSA will amend FSA Handbook 1-FLP, General Program Administration, to
require that loans reviewed as part of the Credit Quality Reviews (1-FLP, Par. 28 A) will
include at least 1 loan made with Recovery Act funds.

If you have any questions regarding these responses, please contact Mike Hinton, Branch
Chief, Direct Loans and Funds Management Branch, at 202-720-1472, or via email at:
Mike.Hinton@wdc.usda.gov.
